No. 20-605
IN THE

Supreme Court of the United States
KIERNAN J. WHOLEAN,
JAMES A. GRILLO,
Petitioners,
v.
CSEA SEIU LOCAL 2001,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Second Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1, I, Milton L. Chappell, a member of the
bar of this Court, certify that the Reply to Briefs in Opposition in the above entitled
case complies: a) with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in Century Schoolbook 12 point for the text and 10 point for the footnotes;
and b) with the word count requirement of Supreme Court Rule 33.1(h), in that this brief
contains 873 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d).
Dated: March 4, 2021.
MILTON L. CHAPPELL
Counsel of Record
c/o NATIONAL RIGHT TO WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
mlc@nrtw.org
Counsel for Petitioners

